HHS/OIG-Audit--"Review of Medicare Hospice Beneficiary in the Commonwealth of Puerto Rico, (A-02-94-01035)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Hospice Beneficiary Eligibility in the Commonwealth of Puerto Rico," (A-02-94-01035)
March 21, 1996
Complete
Text of Report is available in PDF format (869 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that, based on the results of a statistical sample of patient records, approximately
$19.7 million was improperly paid to 37 hospice providers in Puerto Rico on behalf of ineligible beneficiaries during the
period September 1991 through July 1994. The beneficiaries were ineligible for hospice care primarily because their medical
condition was nonterminal. In addition to financial adjustments, we recommended that the Health Care Financing Administration
(HCFA) instruct the intermediary to improve its claims processing controls by establishing a "front-end" diagnosis
based edit to identify suspect claims and conducting medical record reviews of the suspect claims. The HCFA concurred with
our findings and recommendations.